Affidavit of Service
STATE OF NEW YORK)
COUNTY OF ONONDAGA)ss.:

I, Rebecca Sklaney, duly depose and say, I served an original copy of the Petition
of Writ of Certiorari for the Defendant/Petitioner, Howard Griffith, for the above
entitled proceeding, dated:
Forma Pauperis dated:

Ocfolper

__ f 2020, with Declarations of In
2020, with attached motion, and ten

copies of the same to the Clerk of the Supreme Court of the United States, with an
exact copy of the same to: William J. Fitzpatrick, Esq., District Attorney of the
State of New York/County of Onondaga, being the only known parties of the said
proceeding, via certified mail, by depositing on the i

day of \

€U

2020, the original petition and exact copies of the same in a post office box of the
City of Syracuse, NY, to be handled with care in Post Offices in the cities of
Washington, DC, and Syracuse, NY, to be received at the following known
addresses:
1) Clerk of the United States Supreme Court
1 First Street, N. E., Washington, DC 20543
2) William J. Fitzpatrick, Esq., NYS District Attorney/County of Onondaga
505 South State Street, 4th Floor, Syracuse, NY 13202

Being the last known addresses for these parties, being the only known parties in
these proceedings, that deponent is over 18 years of age, is not a veteran, is not a
party in this proceeding, and resides in Syracuse, NY,

Sworn to before me thisj^Ldsy of /U)V((0bp/ , 2020

Rebecca Sklaney

F
KEITH MITCHELL
Notary Public - State of New York
No. 01MI6381905
Qualified in Onondaga County
MY UGWWfsstfwi Expires Get 15,2022

Affidavit of Service
STATE OF NEW YORK)
COUNTY OF ONONDAGA)ss.:

I, Rebecca Sklaney, duly depose and say, I served an original copy of the Petition
of Writ of Certiorari for the Defendant/Petitioner, Howard Griffith, for the above
entitled proceeding, dated:. October
Forma Pauperis dated:

Ocfdloer

¥\

, 2020, with Declarations of In

, 2020, with attached motion, and ten

copies of the same to the Clerk of the Supreme Court of the United States, with an
exact copy of the same to: William J. Fitzpatrick, Esq., District Attorney of the
State of New York/County of Onondaga, being the only known parties of the said
proceeding, via certified mail, by depositing on the

30

day of

October

2020, the original petition and exact copies of the same in a post office box of the
City of Syracuse, NY, to be handled with care in Post Offices in the cities of
Washington, DC, and Syracuse, NY, to be received at the following known
addresses:
1) Clerk of the United States Supreme Court
1 First Street, N. E., Washington, DC 20543
2) William J. Fitzpatrick, Esq., NYS District Attorney/County of Onondaga
505 South State Street, 4th Floor, Syracuse, NY 13202

Being the last known addresses for these parties, being the only known parties in
these proceedings, that deponent is over 18 years of age, is not a veteran, is not a
party in this proceeding, and resides in Syracuse, NY.

Sworn to before me this^Odav of

Brian R. Hall
Notary Public-State of N wYork
Qualified In Onondaga county
No.04HA61939134.Ypj
My Ocmm. Exp. Sept. 22, 4
1—J

, 2020

Rebecca Sklaney

